                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 113050028                                                                     Page 1 of 1



         This case was opened on a company1 from a proactive review of SBIR/STTR companies that
         may not have adequate facilities. Questions arose concerning the Phase I and IB awards 2 to this
         company. The company provided information showing they had their described facilities, the
         funds had been spent as laid out in the proposal, and the supporting investments were
         legitimately received. There are no unresolved issues.

         According! y, this case is closed.




NSF OIG Form 2 (11/02)
